      NATIONAL RAILROAD
      PASSENGER CORPORATION
                                         Office of Inspector General
                                                                           \



Memorandum
To:           Donald J. Stadtler, Jr., Vice President, Operations

From:         Calvin E. Evans, Assistant Inspector General, Inspections and Evaluations

Date:         May 6, 2013

Subject:      Engagement Memo—Evaluation of Amtrak’s Plans for Commissioning
              New Locomotive and Passenger Car Equipment (Project 010-2013)

The Office of Inspector General is initiating an evaluation to determine the extent to
which Amtrak is preparing to commission new locomotives and passenger cars into
service and decommission existing equipment. To accomplish this, we will review
existing plans, policies, procedures, and practices, and interview key Amtrak officials
responsible for financial, operations, and maintenance processes associated with
commissioning and decommissioning equipment. We plan to conduct our work in
Washington, D.C., and Wilmington, Delaware, but may visit additional Amtrak offices
as necessary.

We plan to initiate this work immediately and will coordinate an entrance conference
through Amtrak’s audit liaison. We may modify our objective during the course of the
evaluation, and will keep you informed of any material changes. We will conduct this
evaluation in accordance with our statutory responsibilities contained in the Inspector
General Act of 1978, as amended.

Jason Venner, Joshua Moses, and Robert Dyer of my staff will conduct the evaluation.
Please contact me at Calvin.Evans@amtrakoig.gov/(202) 906-4507 or Jason Venner,
Senior Director, at Jason.Venner@amtrakoig.gov/(202) 906-4405, if you have any
questions. We appreciate your continued cooperation.
                                                                                2


cc:   Joseph H. Boardman, President and Chief Executive Officer
      Barry Melnkovic, Chief Human Capital Officer
      Mark Yachmetz, Chief, Corporate Research & Strategy
      Dan M. Black, Acting Chief Financial Officer
      Jeff Martin, Chief Logistics Officer
      Mario Bergeron, Chief Mechanical Officer
      David Nichols, Chief Transportation Officer
      Bruce Pohlot, Chief Engineer
      Matthew Gagnon, Senior Director, Business Processes and Management Controls
      Melantha Page, Senior Audit Liaison
